FDIC Office of Inspector General Press Release: Leader and Organizer of $49.6 Million Mortgage Fraud Scheme Sentenced to 27 Years and Three Months in Prison
United States Department of Justice
United States Attorney's Office
Southern District of Florida
99 N.E. 4 Street
Miami, FL 33132
(305) 961-9001
FOR IMMEDIATE RELEASE
October 1, 2014
Leader and Organizer of $49.6 Million Mortgage Fraud Scheme Sentenced to 27 Years and Three Months in Prison
Wifredo A. Ferrer, United States  Attorney for the Southern District of Florida, George L. Piro, Special Agent in  Charge, Federal Bureau of Investigation (FBI), Miami Field Office, and Fred W.  Gibson, Principal Deputy Inspector General, Federal Deposit Insurance  Corporation, Office of Inspector General (FDIC-OIG), Atlanta Regional Office,  announce that Domenico “Dom” Rabuffo, 78, of Miami, was sentenced by  Chief United States District Judge K. Michael Moore for his role as a leader  and organizer of a $49.6 million bank fraud and wire scheme, perpetrated from  approximately 2003 through 2008.  Domenico Rabuffo was sentenced to 27  years and three months in prison for his role in the fraud scheme.
On July 3, 2014, Domenico Rabuffo and  three co-defendants, Mae Rabuffo, 75, of New York, Raymond E. “Ray”  Olivier, 52, of Land O’ Lakes, Florida, and Curtis Allen Davis, 52,  of Tampa, were convicted of conspiracy to commit bank fraud and wire fraud  after an 11 day-jury trial before Chief Judge Moore.  Domenico Rabuffo,  Olivier, and Davis were also convicted of various bank fraud offenses.
According to the indictment and  evidence at trial, from 2003 to 2008, Rabuffo and his co-defendants conspired  to perpetrate a complex $49.6 million mortgage fraud scheme against various  FDIC-insured lenders, including Bank of America, Regions Bank, SunTrust Bank,  and Wachovia Bank.  Rabuffo and his ex-wife Mae Rabuffo used shell  companies to acquire ownership and control of a purported residential property  development known as Hampton Springs, located in Cashiers, North  Carolina.  Then, Rabuffo, Olivier, and Davis recruited numerous straw  borrowers to purchase building lots in the development.  Several of the straw  borrowers testified at the trial.  According to their testimony and other  evidence, Domenico Rabuffo paid the borrowers to obtain lot purchase loans and  construction loans for building lots in Hampton Springs.  To obtain the  loans, Domenico Rabuffo, Mae Rabuffo, Olivier, Davis, and other conspirators,  submitted fraudulent loan applications and related documents to the lenders and  the lenders’ closing agents.
Among other things, the loan  applications and settlement statements for the lot loans contained fraudulent  statements that the borrowers paid earnest money deposits and cash due at the  closing.  In fact, the deposits and cash-to-close were paid by Domenico  Rabuffo and Mae Rabuffo using proceeds from the fraudulent scheme.   Further, Domenico Rabuffo and Mae Rabuffo sent fraudulent correspondence to the  closing agents, including letters bearing the forged signatures of borrowers,  to create the false impression that the deposits and cash due at closing had  been supplied by the borrowers from their own funds.
Olivier and Davis recruited straw  borrowers for the fraud scheme and submitted fraudulent loan applications to  the lenders.  Further, Olivier and Davis caused their private companies to  be disclosed as the employers of straw borrowers whose actual employment was  inconsistent with the inflated income stated on their loan applications.   Then, when they were contacted by the lenders, Olivier and Davis provided  fraudulent verifications of employment for those borrowers.
Mae Rabuffo, Davis, and Olivier are  scheduled to be sentenced on October 30, 2014, also before Chief Judge Moore.
Three other defendants, Diane M.  Hayduk, 64, of Miami, Victor Miguel Vidal, 49, of Miami, and Lazaro  Jesus Perez, 44, of Miami Springs, pled guilty to the charged conspiracy  and agreed to assist the United States.  Hayduk assisted Domenico Rabuffo  and Mae Rabuffo with the misappropriation of loan proceeds and the transmission  of fraudulent correspondence to the lenders and the closing agents.  Vidal  served as a loan officer at SunTrust Mortgage, where he sponsored fraudulent  loan applications for lots in Hampton Springs, including fraudulent  applications for $33 million in construction loans.  Perez furnished  fictitious accountant’s letters to Vidal, in support of fraudulent loan applications  submitted to SunTrust Mortgage.  Hayduk, Vidal, and Perez were sentenced  in September, 2014.  Hayduk was sentenced to 40 months in prison, Vidal  was sentenced to 64 months in prison and Perez was sentenced to 30 months in  prison.
Mr. Ferrer commended the investigative  efforts of the FBI and FDIC-OIG.  This case was prosecuted by Assistant  United States Attorneys Dwayne E. Williams and Jerrob Duffy.
A copy of this press release may be  found on the website of the United States Attorney’s Office for the Southern  District of Florida at www.usdoj.gov/usao/fls.  Related court documents and information may be found on the website of the  District Court for the Southern District of Florida at www.flsd.uscourts.gov or on http://pacer.flsd.uscourts.gov.
####